TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Better Worker Identification Data
                          Are Needed for the Voluntary
                        Classification Settlement Program



                                        August 27, 2014

                             Reference Number: 2014-40-065




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Redaction Legend:
2 = Risk Circumvention of Agency Regulation or Statute



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


BETTER WORKER IDENTIFICATION                          reported on the application and ultimately the
DATA ARE NEEDED FOR THE                               applicant’s computation of the VCSP payment
VOLUNTARY CLASSIFICATION                              amount owed. Without identifying information
SETTLEMENT PROGRAM                                    for the workers being reclassified, the IRS is
                                                      also unable to establish an effective process to
                                                      monitor VCSP agreements to ensure employer
Highlights                                            compliance. Finally, processes to track and
                                                      monitor program applications are ineffective and
                                                      not always accurate, and the follow-up review
Final Report issued on August 27, 2014                control logs do not always reflect accepted
                                                      agreements.
Highlights of Reference Number: 2014-40-065
to the Internal Revenue Service Commissioners         WHAT TIGTA RECOMMENDED
for the Small Business/Self-Employed and the
Tax Exempt and Government Entities Divisions.         TIGTA recommended that the IRS require
                                                      employers applying for the VCSP to provide the
IMPACT ON TAXPAYERS                                   names and Social Security Numbers for the
                                                      workers being reclassified, revise internal
The IRS estimates that employers misclassify          procedures for processing VCSP applications to
millions of workers as independent contractors        evaluate employer eligibility, and ensure that
instead of employees. In September 2011, the          worker compensation and the VCSP payment is
IRS implemented the Voluntary Classification          accurate; develop follow-up review processes to
Settlement Program (VCSP) to allow employers          ensure compliance with the terms of
to voluntarily reclassify workers as employees        agreements; develop reporting capabilities to
for Federal employment tax purposes.                  allow for a single system for both tracking
Employers that are accepted into the VCSP             inventory and monitoring program performance;
enter into a signed agreement with the IRS to         and revise processes to ensure that accepted
treat workers as employees for future tax             agreements are successfully sent to and
periods.                                              received by the IRS business units responsible
WHY TIGTA DID THE AUDIT                               for monitoring compliance.

This audit was initiated because the                  IRS management agreed with the
classification of whether a worker is an              recommendations. The IRS plans to revise the
employee or an independent contractor has             VCSP application to instruct employers to
significant tax implications for the worker, the      provide worker identification information and to
employer, and the IRS. The overall objective of       revise internal procedures to use this information
this review was to assess the IRS’s VCSP.             to evaluate eligibility for the program and
                                                      compliance with VCSP agreements. The IRS
WHAT TIGTA FOUND                                      also plans to implement reporting capabilities for
                                                      the Reporting Compliance Case Management
The IRS does not obtain the information that it       System to allow for a single inventory system for
needs to verify the accuracy of applications and      inventory tracking and monitoring program
payments. The IRS does not require employers          performance. Finally, the IRS indicated that it
to provide information on the VCSP application        has developed and implemented internal
that identifies the specific workers who are being    procedures to ensure that inventory is accurately
reclassified, such as the workers’ names and          input and agreements are transferred to the
Social Security Numbers. Without the specific         appropriate business units for compliance
worker identification information, the IRS cannot     monitoring.
determine if the applicant met VCSP eligibility
requirements. In addition, the IRS is unable to
verify the accuracy of the compensation amount
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Better Worker Identification Data Are Needed for
                             the Voluntary Classification Settlement Program (Audit # 201340025)

 This report presents the results of our review to assess the Internal Revenue Service’s Voluntary
 Classification Settlement Program. This audit is included in the Treasury Inspector General for
 Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included in Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                    Better Worker Identification Data Are Needed
                                for the Voluntary Classification Settlement Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Worker Identification Information Is Needed to Verify
          the Accuracy of Applications and Associated Payments .............................. Page 5
                    Recommendation 1:.......................................................... Page 6

          Processes for Monitoring Compliance With Terms of
          Agreements Need Improvement ................................................................... Page 6
                    Recommendations 2 and 3: ................................................ Page 7

          Processes to Track and Monitor Applications Are
          Ineffective and Not Always Accurate ........................................................... Page 8
                    Recommendations 4 and 5: ................................................ Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Management’s Response to the Draft Report…. ................. Page 16
            Better Worker Identification Data Are Needed
        for the Voluntary Classification Settlement Program




                  Abbreviations

GECU        Government Entities Compliance Unit
IRS         Internal Revenue Service
RCCMS       Reporting Compliance Case Management System
SB/SE       Small Business/Self-Employed
TE/GE       Tax Exempt and Government Entities
VCSP        Voluntary Classification Settlement Program
                               Better Worker Identification Data Are Needed
                           for the Voluntary Classification Settlement Program




                                             Background

The determination of whether a worker is an employee or an independent contractor has
significant tax implications for the worker, the employer, and the Internal Revenue Service
(IRS). How a worker is classified affects the tax obligations for both the worker and the
employer. For example, the classification will affect who is responsible for paying the Social
Security tax, Medicare tax, and Federal unemployment taxes as well as whether or not Federal
income tax withholding is needed. The IRS estimates that employers misclassify millions of
workers as independent contractors instead of employees. The misclassification of employees as
independent contractors is a nationwide problem.
The misclassification of employees can also create an unfair competitive business advantage
when one employer classifies a class of workers as employees, while a competitor misclassifies
the same class of workers as independent contractors. For example, using an annual average
income of $44,322 per employee1 during Calendar Year 2012, an employer that misclassifies a
worker as an independent contractor reduces the amount of employment taxes2 it pays by $3,811.
This occurs because as an independent contractor, the worker and not the employer is
responsible for paying the entire amount of his or her Social Security and Medicare taxes as well
as any estimated Federal income taxes. In comparison, when an employer treats a worker as an
employee, the employer pays the employer’s share of the Social Security tax (6.2 percent), the
employer’s share of the Medicare tax (1.45 percent), and the Federal unemployment taxes.3

The Voluntary Classification Settlement Program (VCSP) enables employers to
voluntarily reclassify workers
In September 2011, the IRS introduced the VCSP to encourage employers with worker
classification issues to voluntarily come forward to reclassify workers from independent
contractors to employees. The focus of the VCSP is on future compliance and providing
employers that are currently not in compliance with worker classification an avenue to become
compliant. Employers that are accepted into the VCSP enter into a signed agreement with the



1
  This is the estimated national average wage index for Calendar Year 2012 that the Social Security Administration
uses to compute retirement benefits.
2
  The $3,811 in employment tax benefit is calculated based upon the Social Security tax rate of 6.2 percent of wages
($2,748), the Medicare tax rate of 1.45 percent of wages ($643), and the Federal unemployment tax rate of 6 percent
on the first $7,000 of wages ($420).
3
  For Tax Year 2014, the Federal unemployment tax rate is 6 percent on the first $7,000 paid to an employee;
however, employers can qualify for a 5.4 percent tax deduction for their portion of the State unemployment tax,
making it an effective rate of 0.6 percent.

                                                                                                            Page 1
                                Better Worker Identification Data Are Needed
                            for the Voluntary Classification Settlement Program



IRS to treat workers as employees for future tax periods. The VCSP provides significant
benefits to an employer that may have misclassified workers, including:
        Avoiding worker classification audits of prior tax periods4 for which the workers were
         misclassified.
        Receiving substantial relief from Federal employment taxes owed for the prior tax
         periods along with relief from any interest and penalties on these liabilities.
        Obtaining a fresh start with the IRS to properly classify workers as employees for future
         tax periods.
To participate in the program, an employer must file an application using Form 8952,
Application for Voluntary Classification Settlement Program (VCSP). The employer
self-declares on Form 8952 the number of workers being reclassified as well as the compensation
paid to those workers for the most recent calendar year. Employers accepted into the VCSP are
required to pay only 10 percent of the employers’ tax liability5 on compensation paid to the
workers being reclassified for the most recent calendar year. This equates to approximately
1 percent of the compensation paid to the reclassified workers. Figure 1 shows a hypothetical
example of how an employer would calculate the VCSP payment on Form 8952 using the
estimated national average wage index for Calendar Year 2012 of $44,322.
              Figure 1: Hypothetical Example of VCSP Payment Calculation




    Source: Form 8952.




4
  A tax period refers to each tax return filed by the taxpayer for a specific period (year or quarter) during a calendar
year for each type of tax.
5
  The employer’s tax liability is calculated based on Internal Revenue Code Section 3509(a) rates. These rates apply
to employers that are under worker reclassification reviews and include the employer’s share of Social Security tax
and Medicare tax and a portion of the employee’s share of Social Security tax, Medicare tax, and Federal income tax
withholding.

                                                                                                               Page 2
                              Better Worker Identification Data Are Needed
                          for the Voluntary Classification Settlement Program



To be eligible for the VCSP, the employer:
        Must have previously treated the workers to be reclassified as independent contractors.
        Must have filed Forms 1099-MISC, Miscellaneous Income, (referred to as Forms 1099)
         as required6 for the previous three years with respect to the workers to be reclassified.7
        Cannot be under an employment tax audit by the IRS or an audit of worker classification
         with either the Department of Labor or a State government agency.
The Small Business/Self-Employed (SB/SE) Division is responsible for the overall policy and
administration of the VCSP. The Tax Exempt and Government Entities (TE/GE) Division
Government Entities Compliance Unit (GECU) is responsible for evaluating and approving
employer VCSP applications. As of April 25, 2014, the IRS has completed reviews of
1,508 applications and accepted 1,303 (86 percent) applicants into the program. Figure 2
provides details of the applications processed since the inception of the VCSP through
April 25, 2014.
           Figure 2: Summary of VCSP Applications Through April 25, 2014

                                      Workers                                                  VCSP
        Fiscal    Applications      Requested to          Agreements      Workers            Payments
        Year8      Reviewed        be Reclassified         Accepted      Reclassified        Received

        2012            638              12,437               565            11,749         $1,498,850

        2013            629              11,083               532            10,071         $1,728,318

        20149           241               4,323               206             3,623           $681,545

        Total         1,508              27,843             1,303            25,443         $3,908,713
    Source: VCSP monthly briefing as of April 25, 2014.

This review was performed at the SB/SE Division Specialty Tax Programs function in Florence,
Kentucky, and the TE/GE Division GECU in Ogden, Utah, during the period August 2013
through May 2014. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

6
  Employers are required to file Forms 1099 for workers who provide services of $600 or more per calendar year.
7
  During December 2012 through June 2013, the IRS temporarily allowed employers that had not filed Forms 1099
to enter into VCSP agreements provided that the employers had electronically filed the Forms 1099 for the
three years prior to executing the VCSP agreement.
8
  A fiscal year is any yearly accounting period, regardless of its relationship to a calendar year. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
9
  Information for Fiscal Year 2014 is for approximately seven months (a partial fiscal year).

                                                                                                         Page 3
                          Better Worker Identification Data Are Needed
                      for the Voluntary Classification Settlement Program



conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                                 Better Worker Identification Data Are Needed
                             for the Voluntary Classification Settlement Program




                                       Results of Review

Worker Identification Information Is Needed to Verify the Accuracy of
Applications and Associated Payments
The IRS does not obtain the information that it needs to verify the accuracy of VCSP
applications and VCSP payments. For example, the IRS does not require employers to provide
information on the VCSP application that identifies the specific workers who are being
reclassified, such as the workers’ names and Social Security Numbers. Without the specific
worker identification information, the IRS cannot determine if the applicant met VCSP eligibility
requirements. In addition, the IRS is unable to verify the accuracy of the compensation amount
reported on the Form 8952 and ultimately the applicant’s computation of the VCSP payment
amount owed.
VCSP eligibility requirements state that employers must have filed all required Forms 1099 for
the previous three years for the workers to be reclassified and the employer is required to pay
10 percent of the employer’s tax liability on compensation paid to the workers being reclassified
for the most recent calendar year. However, IRS internal procedures instruct tax compliance
officers10 reviewing applications to ensure that the employer filed Forms 1099 for each of the
three previous years. The verification detailed in IRS procedures is not the same as the
requirement that must be met for an employer to participate in the VCSP, which is that the
employer filed all Forms 1099 for the previous three years for the workers to be reclassified.
A sufficient verification cannot be performed without worker identification information. In
addition, procedures indicate that the tax compliance officer reviewing the application is not
expected to validate the taxpayer’s computations.
According to IRS management, the IRS does not require employers to include information on the
Form 8952 identifying specific workers to be reclassified because they intended for the VCSP
application process to be easy, quick, and inclusive for employers to encourage them to
voluntarily enter into the program. In addition, IRS management indicated that they rely on the
information provided by the employer as being true, correct, and complete because the employer
is voluntarily coming forward and signing the application under penalties of perjury.
The IRS implemented the VCSP to encourage employers with worker classification issues to
voluntarily come forward to reclassify workers from independent contractors to employees.
The benefits of the VCSP to the Federal Government include greater certainty for the receipt of
employment tax payments and reduced cost for tax administration by reducing the number of

10
     A tax compliance officer is the GECU employee who is responsible for processing VCSP applications.

                                                                                                          Page 5
                           Better Worker Identification Data Are Needed
                       for the Voluntary Classification Settlement Program



employment tax audits. For the employers accepted into this program, they receive a significant
reduction in taxes owed due to their previous misclassification of workers. As such, the IRS
should request specific identifying information for the workers being reclassified to ensure that
employers are accurately requesting participation in the program and making the correct VCSP
payment.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
revise Form 8952 to require employers applying for the VCSP to provide the names and Social
Security Numbers for the workers requested for reclassification. In addition, revise internal
procedures for processing VCSP applications to use the names and Social Security Numbers of
the workers to be reclassified to evaluate employer eligibility for the VCSP and ensure that
worker compensation reported and the VCSP payment are accurate.
       Management’s Response: IRS management agreed with this recommendation. The
       SB/SE Division will work with the Wage and Investment Division to revise Form 8952 to
       instruct VCSP applicants to provide the names and Social Security Numbers for all
       workers who are being reclassified. In addition, the IRS will revise internal procedures
       for processing Form 8952 to utilize the names and Social Security Numbers of the
       workers being reclassified to evaluate eligibility for the VCSP and assure the
       compensation reported is reasonably accurate.

Processes for Monitoring Compliance With Terms of Agreements
Need Improvement
Without identifying information on the specific workers whom employers agreed to reclassify,
the IRS is unable to establish an effective process to monitor VCSP agreements to ensure
employer compliance. Both the SB/SE and the TE/GE Divisions are responsible for conducting
follow-up reviews of employers with accepted VCSP agreements to determine if the employer
complies with the terms of the VCSP agreement. The SB/SE Division is responsible for
employers classified as SB/SE or Large Business and International Division taxpayers, and the
TE/GE Division is responsible for employers classified as TE/GE Division taxpayers. The
VCSP closing agreement requires the employer to remain in compliance with its VCSP
agreement for future tax years. If noncompliance is discovered, the employer forfeits all benefits
provided through the VCSP. The reclassification of workers requires employers to change the
workers from independent contractors to employees; thus, the workers will start receiving a
Form W-2, Wage and Tax Statement, instead of a Form 1099.
The process the SB/SE Division established evaluates compliance with the VCSP agreements by
performing a trend analysis. The trend analysis looks at whether the number of Forms 1099 or
the amount of compensation reported on Forms 1099 for this specific employer has decreased

                                                                                           Page 6
                           Better Worker Identification Data Are Needed
                       for the Voluntary Classification Settlement Program



while the number or the amount of compensation reported on Forms W-2 has increased. This
analysis compares this information from the calendar year before reclassification to the calendar
year following reclassification. Using this approach, as of May 5, 2014, the SB/SE Division has
conducted follow-up reviews on 86 VCSP agreements. The SB/SE Division identified
32 (37 percent) VCSP agreements with which the employer is potentially not in compliance.
However, without identifiable information of the specific workers reclassified, the IRS cannot
verify whether workers were reclassified as indicated by the receipt of Forms W-2 subsequent to
the VCSP effective date.
The SB/SE Division plans to refer these employers for potential examination. SB/SE Division
management agreed that the workers being reclassified cannot be identified and the change in
income documents may not match the VCSP agreement. The IRS also advised us that due to
employee turnover, the workers reclassified may differ from the workers that employers
requested to be reclassified. The IRS agreed that identifiable information of the workers
reclassified would lead to more accurate determinations on employer compliance.

************************************2**************************************************************
************************2*******************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
*****************2************************.

Recommendations
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
revise the follow-up review process for monitoring compliance with VCSP agreements to use
identifying information for the workers the employers agreed to reclassify.
       Management’s Response: IRS management agreed with this recommendation. The
       SB/SE Division will revise the follow-up review process for monitoring compliance with
       the VCSP agreements to use the identifying information for the workers whom the
       employers agreed to reclassify.
Recommendation 3: The Commissioner, Tax Exempt/Government Entities Division, should
develop a process for monitoring compliance with VCSP agreements. This process***2****
***************************2******************************************.

                                                                                            Page 7
                               Better Worker Identification Data Are Needed
                           for the Voluntary Classification Settlement Program



        Management’s Response: IRS management agreed with this recommendation.
        ********************************2***************************************
        ********************************2***************************************
        *********2*******************.

Processes to Track and Monitor Applications Are Ineffective and Not
Always Accurate
IRS procedures require GECU employees to update both the Reporting Compliance Case
Management System (RCCMS)11 and the GECU log12 simultaneously when working VCSP
applications. Although these systems are to be updated simultaneously, our comparison of
VCSP application inventory as of March 18, 2014, identified 83 VCSP applications that had
different statuses13 reported on the GECU log versus the RCCMS. For example, the RCCMS
showed applications in the status of application received, yet the GECU log showed the
application as being accepted. The GECU is in the process of creating an action plan to improve
the accounting for and control of VCSP applications. For example, one of the actions is a
monthly review, i.e., reconciliation, of the RCCMS inventory and the GECU manual log. In
April 2014, the IRS completed the review on five VCSP applications and identified 11 errors,
such as the number of employees entered into the RCCMS did not match the GECU log. All of
the errors identified were the result of not updating both the RCCMS inventory and the GECU
log to reflect changes, updates, or corrections.
The IRS maintains duplicate inventory information as the RCCMS improves IRS control of
VCSP applications but does not provide the needed management information reporting
capabilities of the GECU log. Initially, the IRS maintained only the GECU log to track and
monitor VCSP application inventory. In November 2013, the GECU began using the RCCMS to
track VCSP applications. While the RCCMS offers improvements in the control of VCSP
application inventory, our discussions with the IRS found that the RCCMS does not have the
ability to generate management information reports to monitor program performance, including
the number of applications received and accepted.
Errors on the GECU log and the RCCMS can result in inaccurate information in the monthly
status reports for monitoring program performance and can result in applications not being
worked in a timely manner.


11
   The RCCMS provides TE/GE Division personnel with the capabilities to perform operating division-wide
inventory control, compliance testing, tax computing, education and outreach, and team examination monitoring.
The GECU uses the RCCMS to log and control VCSP applications.
12
   The GECU log is an inventory list of VCSP applications in progress, accepted, and/or rejected. The GECU log is
the source used to create monthly VCSP performance summary data.
13
   The IRS uses various status codes to indicate the progress of the work on the VCSP application from receipt to
approved agreement.

                                                                                                          Page 8
                           Better Worker Identification Data Are Needed
                       for the Voluntary Classification Settlement Program



The process is not adequate to control transfer of VCSP agreements between IRS
functions
As of November 26, 2013, the GECU log showed that the IRS accepted 983 applications from
employers for which the SB/SE Division is responsible for monitoring compliance with the
terms of the accepted agreement. We identified 73 accepted agreements for which the SB/SE
Division’s follow-up review control log did not reflect the receipt of these accepted agreements.
The GECU had no record of sending the cases to the SB/SE Division. As a result, these
employers would not be subjected to a SB/SE Division follow-up review.
On a monthly basis, the GECU mails to the SB/SE Division all accepted VCSP agreements for
the employers the SB/SE Division is required to monitor for compliance with the agreements.
The GECU maintains documentation confirming the VCSP agreements were sent to the SB/SE
Division; however, no process has been established to confirm the SB/SE Division’s receipt of
the VCSP agreements. After we advised management of the discrepancies in the inventories,
IRS management located and routed the accepted VCSP agreements to the SB/SE Division,
allowing the SB/SE Division to control these cases for subsequent compliance monitoring
checks.

Recommendations
The Commissioner, Tax Exempt and Government Entities Division, should:
Recommendation 4: Develop reporting capabilities for the RCCMS to allow for a single
system for both tracking inventory and monitoring program performance of the VCSP.
Meanwhile, the IRS should revise processes to ensure that information is accurately and
completely logged into the GECU log and the RCCMS. This process should include a periodic
inventory validation.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will implement RCCMS reporting capabilities to allow for a single inventory
       tracking system. In addition, the IRS developed and implemented internal procedures to
       ensure that information is accurately recorded in both the RCCMS and the GECU log.
Recommendation 5: Revise processes to ensure that accepted agreements are successfully
sent to and received by the IRS business units responsible for monitoring compliance with the
terms of those agreements.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS indicated that internal procedures were revised to ensure that the appropriate




                                                                                           Page 9
                               Better Worker Identification Data Are Needed
                           for the Voluntary Classification Settlement Program



        accepted VCSP agreements are forwarded to and received by the IRS business unit that
        will monitor them for compliance.14




14
  IRS management indicated that they implemented the corrective action to this recommendation. However, the
IRS implemented the corrective action after the completion of our field work, and as such, we did not test these
corrective actions.

                                                                                                          Page 10
                               Better Worker Identification Data Are Needed
                           for the Voluntary Classification Settlement Program



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’s VCSP. To accomplish this objective, we:
I.      Determined if the IRS accurately processes VCSP applications.
        A. Reviewed the Internal Revenue Manuals and desk procedures, and interviewed IRS
           management and staff to determine how the IRS processes the VCSP application.
        B. Identified a population of 554 VCSP agreements that were accepted between
           October 1, 2012, and November 26, 2013. There were 73 VCSP agreements that
           were accepted into the program from December 2012 through June 2013 as part of
           the eligibility expansion1 that were excluded from our population because the
           eligibility expansion was discontinued. We selected a random sample of 50 VCSP
           agreements out of the 554 accepted agreements. A random sample was used to
           ensure that each VCSP agreement had an equal chance of being selected, which
           enabled us to obtain sufficient evidence to support our results. Because the program
           has only been established since September 2011, we decided to review more recently
           completed VCSP agreements to allow the IRS time to correct initial processing
           issues.
        C. For the sample of 50 accepted VCSP agreements selected in Step I.B, determined if
           the applications were filled out correctly, case files contained the correct research,
           and the IRS could verify the workers being reclassified. We evaluated whether
           information available in the VCSP application and/or IRS systems was sufficient to
           determine the eligibility of the employers and to assess the accuracy of the
           compensation amount reported. We also evaluated the accuracy of the calculation of
           the VCSP payment using the compensation reported by employers on the VCSP
           application. We used the results of this sample as a basis for our conclusions that
           worker identification information is needed to verify the accuracy of the applications
           and associated payments.




1
  During December 2012 through June 2013, the IRS temporarily allowed employers that had not filed Forms 1099
to enter into VCSP agreements provided that the employers electronically filed the Forms 1099 for the three years
prior to executing the VCSP agreement.

                                                                                                         Page 11
                               Better Worker Identification Data Are Needed
                           for the Voluntary Classification Settlement Program



II.     Determined if the IRS accurately accounts for all VCSP applications and maintains
        accurate information on these applications.
        A. Obtained copies of the GECU log2 from the GECU for Fiscal Years3 2012, 2013, and
           2014 (through May 8, 2014).
        B. Evaluated the accuracy of the GECU logs obtained in Step II.A.
             1. Identified fields from the GECU log that needed or required information to be
                filled out to evaluate the performance of the VCSP.
             2. Obtained a list of the GECU electronic case file directory and compared the first
                435 VCSP applications listed to the 1,443 applications on the GECU log as of
                November 26, 2013, to ensure that the GECU log reconciled with the electronic
                case files. We researched all discrepancies involved and received IRS agreement
                on errors identified. We selected the first 435 VCSP applications listed because
                this provided a reasonable basis to ensure completeness of the GECU log.
        C. Obtained a copy of the VCSP monthly summary report as of November 22, 2013.
           We compared the monthly summary report to the GECU logs for Fiscal Years 2012,
           2013, and 2014 as of November 21, 2013. We determined whether the monthly
           report is an accurate portrayal of the information maintained in the GECU logs.
        D. Assessed the effectiveness of the IRS process for converting the manually maintained
           GECU log to the RCCMS.4
III.    Determined the effectiveness and efficiency of follow-up reviews on VCSP agreements.
        A. Reviewed the Internal Revenue Manual and desk procedures, and interviewed
           management and staff on follow-up reviews on the VCSP agreements.
        B. Obtained a copy of the SB/SE Division’s follow-up review control log as of
           November 26, 2013. We evaluated the IRS process for transferring VCSP
           agreements between the GECU and the SB/SE Division by comparing the SB/SE
           Division’s follow-up review control log with the GECU log as of
           November 26, 2013.




2
  The GECU log is an inventory list of the VCSP applications in progress, accepted, and/or rejected. The GECU log
is the source used to create monthly VCSP performance summary data.
3
  The fiscal year is any yearly accounting period, regardless of its relationship to a calendar year. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
4
  The RCCMS provides TE/GE Division personnel with the capabilities to perform operating division-wide
inventory control, compliance testing, tax computing, education and outreach, and team examination monitoring.
The GECU uses the RCCMS to log and control VCSP applications.

                                                                                                        Page 12
                          Better Worker Identification Data Are Needed
                      for the Voluntary Classification Settlement Program



       C. Identified 109 accepted agreements from the SB/SE Division’s follow-up review
          control log obtained in Step III.B that had an effective reclassification date of
          January 1, 2012, and prior. These agreements met the SB/SE Division’s selection
          criteria for conducting follow-up reviews, i.e., a minimum of one fully completed
          calendar year after the execution of the VCSP agreement.
       D. Determined that the SB/SE Division reviewed 39 of the 109 accepted agreements for
          compliance identified in in Step III.C as of November 26, 2013.
       E. Evaluated the employer’s compliance with the terms of the VCSP agreement on all
          39 accepted agreements identified in Step III.D.
       F. Obtained a copy of the SB/SE Division’s follow-up review control log as of
          May 5, 2014, and determined that the SB/SE Division reviewed 86 of 144 accepted
          agreements for compliance. We used the results of this analysis and Step III.E as a
          basis for our conclusions on IRS processes for monitoring compliance with the terms
          of the agreements.
       G. Determined whether TE/GE Division VCSP agreements are subjected to VCSP
          follow-up reviews.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the SB/SE Division
Employment Tax function policies and guidance on the VCSP and the TE/GE Division GECU
procedures on the VCSP application. We evaluated these controls by interviewing management,
conducting walkthroughs of the processes, and reviewing case files.




                                                                                       Page 13
                          Better Worker Identification Data Are Needed
                      for the Voluntary Classification Settlement Program



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Diana M. Tengesdal, Acting Director
Darryl Roth, Audit Manager
Jonathan Lloyd, Lead Auditor
Johnathan Elder, Auditor
Nathan Smith, Auditor




                                                                                          Page 14
                         Better Worker Identification Data Are Needed
                     for the Voluntary Classification Settlement Program



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T




                                                                                     Page 15
           Better Worker Identification Data Are Needed
       for the Voluntary Classification Settlement Program



                                                   Appendix IV

Management’s Response to the Draft Report




                                                             Page 16
    Better Worker Identification Data Are Needed
for the Voluntary Classification Settlement Program




                                                      Page 17
                Better Worker Identification Data Are Needed
            for the Voluntary Classification Settlement Program




                                             2


CORRECTIVE ACTION MONITORING PLAN:
IRS will monitor this corrective action as part of our internal management system of controls.

RECOMMENDATION 3:
The Commissioner, Tax Exempt/Government Entities Division,**********************2************
*****************************************2****************************************************************
******************************2***************************************************.

CORRECTIVE ACTION:
*******************************************2**************************************************************
*****************************************2****************************************************************
*********************************************2*******************.

IMPLEMENTATION DATE:
March 15, 2015

RESPONSIBLE OFFICIAL(S):
Director, Government Entities Compliance Services, Tax Exempt/Government Entities

CORRECTIVE ACTION MONITORING PLAN:
IRS will monitor this corrective action as part of our internal management system of controls.

RECOMMENDATION 4:
The Commissioner, Tax Exempt/Government Entities Division, should develop reporting
capabilities for the RCCMS to allow for a single system for both tracking inventory
and monitoring program performance of the VCSP. Meanwhile, the IRS should revise
processes to ensure that information is accurately and completely logged into the GECU
 log and the RCCMS. This process should include a periodic inventory validation.

CORRECTIVE ACTIONS:
1. Reporting Compliance Case Management System (RCCMS) reporting will be
    implemented to allow for a single system for inventory tracking and monitoring
   program performance.
2. Internal procedures were developed and implemented to ensure information
   is accurately entered into both RCCMS and the Government Entities Compliance
    Unit (GECU) log, which includes additional review of and validation of inventory.




                                                                                                             Page 18
    Better Worker Identification Data Are Needed
for the Voluntary Classification Settlement Program




                                                      Page 19
